Executive Report
Return to the USDOJ/OIG Home Page
Accuracy of Adjudications and Naturalization Data in the Performance Analysis System of the U.S. Immigration and Naturalization Service
Report No. 99-03Office of the Inspector General
EXECUTIVE SUMMARY
The Immigration and Naturalization Service (INS) uses its computer-based Performance Analysis System (PAS) to track and report on agency productivity.  PAS records data about the workload activities of INS employees, such as the number of hours worked, that relate to the processing of applications for various benefits available under United States immigration law.  Although the direct costs (operation and maintenance) of PAS are only about $130,000 annually, it is an important system used to support budget requests, determine position allocation, measure planned versus actual accomplishments, analyze application backlogs, respond to inquiries, and for other purposes.
In brief, our audit disclosed that PAS adjudications and naturalization data are not reliable.  We found arithmetical errors, omissions of data, and incorrect posting of data.  We identified the following causes for the unreliability of PAS adjudications and naturalization data.
The collection, consolidation, and reporting of data are inadequately monitored, and INS guidance is either out of date or unofficial.
PAS adjudications and naturalization data cannot be traced to any specific application or case file.  As a result, we could not attest to the accuracy of PAS data even if our audit had not found errors and omissions.
PAS does not interface with INS automated case management systems; therefore, all data are manually entered into PAS.  Without an interface between PAS and the other systems, erroneous entries are likely to occur.  In addition, we found indications that data collected by the other systems may not be reliable.
Because the PAS adjudications and naturalization data are unreliable, we conclude that they do not provide INS with an adequate basis for sound decisions and we consider the accuracy of any reports based on them to be questionable.  The details of our work are contained in the findings and recommendations section of the report.  Our audit objectives, scope, and methodology are contained in Appendix I.